                                U.S. Small Business Administration 

                                      Washington, D.C. 20416 




     OFFICE OF 

INSPECTOR GENERAL 



          March 30, 2001

          TO:            Jeanne M. Sclater
                         Acting Associate Deputy Administrator
                           for Capital Access

          FROM:          Mary Jeanne R. Martz'1l\J.VJIr\
                         Acting Assistant Insp~d:ol!fd~n~al
                          for Inspection and Evaluation

          SUBJECT:       Advisory Memorandum:
                         Timeliness of Formal Character Determinations on Loan Applicants
                         (#01-03-01)

          Summary

          The Small Business Administration (SBA) attempts to prevent fraud and monetary loss
          by making any loan applicant who discloses a prior or pending criminal record subject to
          a formal character determination. Some district office officials are concerned that delays
          in this process can hinder customer service by slowing the processing of loan applications
          and thus placing some prospective borrowers' businesses at risk. The Office ofInspector
          General (OlG) believes that clarifying responsibilities and using e-mail in the notification
          process can improve timeliness. The Office of Capital Access (OCA) concurred that this
          report addresses its concerns. OCA' s comments are attached.

          Background

          SBA requires each principal of a small business concern seeking financial assistance to
          be of good character. This same requirement applies to principals of Certified
          Development Companies seeking to participate or participating in the Agency's 504
          program. Each individual principal must complete a Statement of Personal History (SBA
          Form 912). If he/she discloses the existence of a prior or pending criminal record, the
          local supervisory SBA financial assistance official must-at least temporarily--cease
          processing the loan application and request both a name and fingerprint check.
          Accordingly, the local processing office must submit the completed Form 912 and
          fingerprint card to the OlG Office of Security Operations (OSO). OIG/OSO then
          requests a name and fingerprint check from the Federal Bureau of Investigation (FBI).

          There are exceptions to these procedures. The local official can permit processing of the
          loan if the applicant disclosed a single minor offense within the last ten years, several



                                  Fedoral Recycling Program   0   Printed on Recycled Paper
minor offenses remote in time, or a prior offense cleared on a previous loan application
when no subsequent offense has occurred. Nonetheless, a name check-but not a
fingerprint check-must be requested.

After OIG/OSO receives the results from the FBI, it compares them with information
provided by the loan applicant to determine whether to issue a clearance memorandum to
the submitting SBA office or to make a Character Eligibility Referral (CER) to the Office
of Financial Assistance (OFA). A clearance memorandum is issued when the FBI's
information corroborates that submitted by the applicant and the criminal history does not
involve a major or violent crime. Conversely, a CER is made when the applicant fails to
fully disclose hislher criminal history, or the history involves a major or violent crime. In
that event, OF A must subsequently make a formal character determination on the loan
applicant and decide whether to permit or preclude the processing or disbursement of the
loan.

Time Necessary for the Process

Minimizing the time needed for a formal character determination requires prompt action
by all parties involved. First, as indicated in an August 1995 procedural notice, the SBA
field office submitting the Form 912 and fingerprint card must ensure they are complete
and legible. An OFA staff person involved in this process noted that sometimes there are
delays in the field office's submission of Forms 912 and the fingerprint forms, thus
contributing to initial delays. Moreover, incomplete documents or the use of incorrect
forms, particularly by Certified Development Companies, have required that forms be
sent back to the districts, further delaying the process.

Next, after receiving the completed documents, OJG/OSO usually takes no more than a
week to submit them to the FBI. From SBA's perspective, the time needed by the FBI is
a factor in the process that cannot be controlled. Before its conversion to an automated
fingerprint identification system, the FBI sometimes needed four to six months for
manual searches. Timeliness has since improved. According to an OJG official, roughly
100 names per month are sent to the FBI for fingerprint checks, with usually no more
than four checks being past due, i.e., the FBI needing more than 30 days to provide
results. However, from September 1999 through March 2000, the past due tally ranged
from 12 to 45 names per month because of the FBI's transition to a new system.

Currently, the FBI can perform fingerprint checks in seven to 14 days. However, name
checks can take up to 30 days if the FBI has to retrieve multiple paper files-a time­
consuming process.

Once OJG/OSO receives the FBI results, it has seven calendar days to summarize and
transmit those results to OFA. According to a 1992 OIG memorandum to OFA and other
offices, OFA then has 30 calendar days to make a formal character determination on an
applicant-a standard OFA still uses. The final step is to inform the submitting office
and OIG/OSO of the final character determination.




                                             2
OFA has sometimes needed more than 30 days. According to an OFA official, a major
reason is that staffing shortages required shifting individual workloads in order to
complete other high priority work. Another official noted that conflicting work priorities
sometimes resulted in character determinations being completed without the formal
paperwork being sent promptly to OIG/OSO and the district offices. Nonetheless, OFA
officials believe that recent small increases in staffing should relieve at least some of the
workload burden.

Another reason for delays is that some loan applications are simply anomalies requiring
special attention. In such cases, SBA field offices may need to follow up with the loan
applicants to obtain more information, thus affecting timeliness.

Improving Timeliness

There are four aspects of the character determination process over which SBA has some
control:

I. 	 The submitting office's timely and correct completion of the Form 912 and
     fingerprint card;

2. 	 OIG/OSO's prompt transmission of the completed Form 912 and fingerprint card to
     the FBI;

3. 	 After receipt of the FBI results, OIG/OSO's timely issuance of either a clearance
     memorandum to the submitting office or a CER to OF A; and

4. 	 OFA's issuance of its formal character determination within 30 days of receiving the
     CER and its immediate communication of that determination to the submitting office
     and OIG/OSO.

Improving the timely and correct completion of documents handled by the submitting
office (item #1) should require only a procedural reminder. OIG/OSO's handling of the
documents and its issuance of a clearance memorandum or CER (items #2 and #3) appear
to be timely. OFA's challenge (item #4) should be partially solved by the addition of
new staff. However, communicating the formal character determination in a timely
manner will require an additional measure. To prevent delays at the close of the process,
OFA has several options, all of which involve using e-mail.

       Option 1. OF A could send an advance e-mail disclosing its decision to the
       relevant district director, the team leader of the district office's economic
       development staff, and OIG/OSO. The official signed hard copy would be
       transmitted at a later timely date. The e-mail would alert officials
       regarding the forthcoming action so that the district office could, if
       applicable, resume processing the loan. However, the signed hard copy
       would still be the official confirmation with legal force. According to an




                                             3
       OFA official, OFA has occasionally used this "heads up" e-mail approach
       successfully in these situations.

       This option presents two security concerns. First, unauthorized parties
       might alter the e-mail's contents and clear an applicant not of good
       character when OFA intended otherwise. While this is possible, it is
       unlikely to cause irreparable harm. The time required to handle a loan
       should be long enough for the district office to identifY any discrepancy
       between the original e-mail and the subsequent signed character
       determination before funds are disbursed. The second and more basic risk
       is unauthorized parties viewing the e-mail.anissue covered in the next
       option.

       Option 2. A more conservative option would be to send an advance e-mail
       that does not identifY the business or individual directly. The e-mail could
       use an alternative identifier such as a file number, or it could omit the
       identifier altogether and simply inform the field office that a final
       determination was about to be faxed. Either technique would reduce the
       risk of unauthorized parties obtaining confidential information from an e­
       mail and later using that information against the loan applicant or the
       Agency. Moreover, OFA would still be able to routinely communicate its
       decisions rapidly.

       Option 3. Another option would be for an e-mail-possibly enhanced
       with digital signature technology-to serve as the official "paperwork."
       However, because of operational and legal issues associated with proving
       electronic documents' authenticity, a completely paperless option is not
       currently available and is unlikely to be available in the immediate future.
       In addition, even advanced technology is unlikely to help in the small
       percentage of anomalous situations that require special handling.

Regardless of the option(s) OFA chooses, improving timeliness will require clarifying
participating offices' responsibilities, timeframes, and methods of communication. As
SBA's role and technology change, the Agency likely will need to update such guidance
every few years.

Recommendation

To improve the timeliness of OFA's formal character determinations on loan applicants,
OFA and orO/OSO should jointly prepare a procedural notice outlining (I) the
responsibilities of all participating offices-including the originating offices-in terms of
timefrarnes and required documentation, and (2) howe-mail will be used to provide
advance notice of OFA's final decisions.




                                            4

CONTRIBUTOR TO THIS REPORT

Phil Neel, Senior Inspector



cc: 	 Jane P. Butler
      Judith Roussel




                              5
                      u.s.   SMALL BUSINESS ADMINISTRATION
                               WASHINGTON, D.C.   20~16




Date:         March 29, 2001

To:           Mary Jeanne R. Martz
              Acting Inspector General
               for Inspection ~ation

From:       ~~er
           U -;:;:~~ l'l~~~~e Deputy Administrator
                for Capital Access

Subject:      Final Draft Advisory Memorandum


The Office of Capital Access has reviewed the final draft advisory memorandum on the
Timeliness of Formal Character Determinations on Loan Applicants. We concur that the
report addresses our concerns and believe that the current process will greatly improve
the timeliness of our handling of those cases.

The professionalism of your staffis always appreciated. If you have any questions,
please contact Greg Diercks at 205-7538.




                                            6
